<html>
<title> - THE NOMINATION OF MS. SHALANDA D. YOUNG, OF LOUISIANA, TO BE DEPUTY DIRECTOR, OFFICE OF MANAGEMENT AND BUDGET</title>
<body><pre>[Senate Hearing 117-24]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-24

    NOMINATION OF MS. SHALANDA D. YOUNG, OF LOUISIANA, TO BE DEPUTY 
               DIRECTOR, OFFICE OF MANAGEMENT AND BUDGET

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

 March 2, 2021--HEARING ON THE NOMINATION OF MS. SHALANDA D. YOUNG, OF 
   LOUISIANA, TO BE DEPUTY DIRECTOR, OFFICE OF MANAGEMENT AND BUDGET

 March 10, 2021--EXECUTIVE BUSINESS MEETING TO CONSIDER THE NOMINATION 
 OF MS. SHALANDA D. YOUNG, OF LOUISIANA, TO BE DEPUTY DIRECTOR, OFFICE 
                        OF MANAGEMENT AND BUDGET
                        
                        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                        


             Printed for use of the Senate Budget Committee
             
             
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-902 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
            
                        COMMITTEE ON THE BUDGET

                   BERNARD SANDERS, Vermont, Chairman
PATTY MURRAY, Washington             LINDSEY O. GRAHAM, South Carolina
RON WYDEN, Oregon                    CHARLES E. GRASSLEY, Iowa
DEBBIE STABENOW, Michigan            MIKE CRAPO, Idaho
SHELDON WHITEHOUSE, Rhode Island     PATRICK TOOMEY, Pennsylvania
MARK R. WARNER, Virginia             RON JOHNSON, Wisconsin
JEFF MERKLEY, Oregon                 MIKE BRAUN, Indiana
TIM KAINE, Virginia                  RICK SCOTT, Florida
CHRIS VAN HOLLEN, Maryland           BEN SASSE, Nebraska
BEN RAY LUJAN, New Mexico            MITT ROMNEY, Utah
ALEX PADILLA, California             JOHN KENNEDY, Louisiana
                                     KEVIN CRAMER, North Dakota
                Warren Gunnels, Majority Staff Director
                  Nick Myers, Minority Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              

                                HEARING

                                                                   Page
March 2, 2021--Hearing on the Nomination of Ms. Shalanda D. 
  Young, of Louisiana, To Be Deputy Director, Office of 
  Management and Budget (OMB)....................................     1

                OPENING STATEMENTS BY COMMITTEE MEMBERS

Chairman Bernard Sanders.........................................     1
Ranking Member Lindsey Graham....................................     2

                               WITNESSES

Testimony of Ms. Shalanda D. Young, of Louisiana, To Be Deputy 
  Director, Office of Management and Budget......................     4
    Prepared Statement of........................................    30
Statement of the Honorable Patrick Leahy, A U.S. Senator from the 
  State of Vermont...............................................     3

                   MATERIALS SUBMITTED FOR THE RECORD

Statement of Biographical and Financial Information Requested of 
  Presidential Nominee Ms. Shalanda D. Young To Be Deputy 
  Director of the Office of Management and Budget................    32
Pre-Hearing Questions from Chairman Bernard Sanders with Answers 
  by Shalanda D. Young...........................................    41
Pre-Hearing Questions from Ranking Lindsey Graham with Answers by 
  Shalanda D. Young..............................................    43
Post-Hearing Questions from Budget Committee Members with Answers 
  by Shalanda D. Young:..........................................    48
    Senator John Kennedy.........................................    48
    Senator Ron Wyden............................................    50
    Senator Sheldon Whitehouse...................................    52
    Senator Jeff Merkley.........................................    56

                       EXECUTIVE BUSINESS MEETING

March 10, 2021--Executive Business Meeting To Consider the 
  Nomination of Ms. Shalanda D. Young, of Louisiana, To Be Deputy 
  Director, Office of Management and Budget......................    57
Committee Votes..................................................    58

 
  THE NOMINATION OF MS. SHALANDA D. YOUNG, OF LOUISIANA, TO BE DEPUTY 
               DIRECTOR, OFFICE OF MANAGEMENT AND BUDGET

                              ----------                              


                         TUESDAY, MARCH 2, 2021

                                       U.S. Senate,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 11:00 a.m., in 
Room SD-608, Dirksen Senate Office Building, Honorable Bernard 
Sanders, Chairman of the Committee, presiding.
    Present: Senators Sanders, Murray, Wyden, Stabenow, 
Whitehouse, Warner, Merkley, Kaine, Van Hollen, Lujan, Padilla, 
Graham, Grassley, Crapo, Toomey, Braun, Scott, Sasse, and 
Kennedy.

         OPENING STATEMENT OF CHAIRMAN BERNARD SANDERS

    Chairman Sanders. Okay. Let me convene this hearing, the 
purpose of which is to speak with Ms. Shalanda Young, who has 
been nominated by the President to be Deputy OMB Director. And 
let me thank my colleague who are here with us in person. I 
know Chuck Grassley is in back, and others will be coming. 
Senator Graham is a little bit late but he will be here 
shortly. And we thank those who are participating remotely.
    We are here today to consider the nomination of Shalanda 
Young to become the next Deputy Director of the Office of 
Management and Budget. As we all know, the OMB is responsible 
for preparing the President's budget, reviewing Federal 
regulations, and providing the proper oversight of Federal 
agencies. It is a very important task.
    For the past 14 years, Ms. Young has served as a top 
staffer on the House Appropriations Committee and has done an 
excellent job in working with Democrats and Republicans on 
legislation that must be passed each and every year that 
impacts the lives of tens of millions, and we thank her very 
much for her years of public service.
    Today, in America, it is no great secret that we are living 
through one of the most difficult periods in the modern history 
of our country. We have a terrible crisis with the pandemic, 
where we have lost half a million Americans, and we are also 
living through a terrible economic downturn. The real 
unemployment rate in America today is over 11 percent. Over 23 
million Americans are either unemployed, underemployed, or have 
given up looking for work. More than half of the workers in our 
country today, unbelievably, in the richest country on earth, 
are living paycheck to paycheck. That means if your car breaks 
down, your kid gets sick, you are facing a terrible financial 
emergency.
    We have the highest rate of childhood poverty of nearly any 
major country on earth, and we hope, by the way, to address 
that through the American Rescue Plan Act that we will be 
discussing this week on the floor of the Senate. And in the 
midst of all that, we have a massive level of income and wealth 
inequality, which this Committee actually will be discussing in 
the near future.
    The COVID-19 pandemic is still raging across the country 
and is responsible for taking the lives of some 514,000 
Americans. At the same time, unbelievably, we have 90 million 
Americans who are either uninsured or underinsured. In other 
words, we have a major health care crisis and are the only 
major country on earth not to guarantee health care to all 
people, as a human right.
    We have, in the midst of all of this, not just an American 
but a global climate crisis that threatens the well-being of 
the planet. We have an affordable housing crisis, where 
millions of people are paying half of their limited incomes on 
rent. Half a million people are sleeping out on the streets.
    We have a racial injustice crisis, and we will accelerate 
our effort to fight systemic racism. We have an immigration 
crisis that must be addressed. It has been ignored for too 
long.
    In other words, this country today faces an unprecedented 
set of crises that must be addressed. And guess what? A lot of 
those priorities, a lot of those issues are going to fall 
within the purview of OMB, including the Director of the OMB.
    Ms. Young, I look forward to working with you as the Deputy 
OMB Director, to enact the promises that the Biden 
administration has made to the American people, and that is to 
increase the Federal minimum wage to $15 an hour; to make 
public colleges and universities tuition-free for working 
families, and to substantially reduce student debt; to lower 
the Medicare eligibility age, and to substantially lower 
prescription drugs costs in this country; to rebuild our 
crumbling infrastructure and create millions of good-paying 
jobs and combat climate change; to make pre-K universal for 
every 3- and 4-year-old in America, and make child care 
affordable to every family in this country; to make sure that 
every worker in America has at least 12 weeks of paid family 
and medical leave; and, in fact, in the midst of massive income 
and wealth inequality, to make sure that the wealthiest people 
and the most profitable corporations start to pay their fair 
share of taxes.
    Those are not my ideas. That is what the Biden 
administration has been talking about. And the job of OMB and 
the Deputy Director of the OMB, to my mind, is to make sure 
that we keep faith with the American people, that we implement 
what the President has been talking about.
    So let me thank Ms. Young for being with us. I look forward 
to your testimony, and now let me give the microphone over to 
Ranking Member Lindsey Graham for his opening statement.

          OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Thank you, Mr. Chairman. I think you are a 
highly qualified person for the job. Everybody that deals with 
you on our side has nothing but good things to say. You might 
talk me out of voting for you, but I doubt it. Thank you.
    Chairman Sanders. Thank you, Mr. Graham, for that cogent 
and brief remark.
    My colleague from Vermont, Senator Leahy, wants to 
introduce Ms. Young. Can we roll the film, so to speak.

 STATEMENT OF THE HONORABLE PATRICK LEAHY, A U.S. SENATOR FROM 
                      THE STATE OF VERMONT

    Senator Leahy. I am very happy to be here today to 
introduce Shalanda Young. She is President Biden's nominee to 
be Deputy Director of the Office of Management and Budget.
    Now, for the members of this Committee who also sit on the 
Appropriations Committee, Shalanda is a familiar face. She has 
worked on the House Appropriations Committee for nearly 16 
years. She has been the House Appropriations Staff Director 
since 2017.
    Actually, it is in that capacity I had the pleasure to 
really get to know her well, and I can tell you, without 
reservation, I can think of no one better suited to be Deputy 
Director of OMB than Shalanda. Her deep understanding of the 
often arcane Federal budget process, her years of experience on 
the Appropriations Committee, her tenacity, her dedication to 
public service, her honesty will serve the agency and the 
American people.
    Shalanda began her career in public service in 2001, at the 
National Institutes of Health. She came first to work on 
Capitol Hill as a detailee with the House Appropriation 
Committee in 2005. She really made a good impression because 
she returned in 2007.
    She worked her way up in the committee over the years. Her 
work in developing the budget and conducted oversight of key 
agencies has given her critical insights into the operation of 
some of our nation's most important agencies, including, of 
course, the Department of Homeland Security, Department of 
Interior, Environmental Protection Agency, the General Service 
Administration. She even served as a staff director for the 
Legislative Branch Subcommittee overseeing the budget for 
Congress.
    Then she became Staff Director of the House Appropriations 
Committee in 2017. Coincidentally, that was the same year I 
became Vice Chairman of the Appropriations Committee. And since 
that time she has helped the House navigate some of the most 
difficult issues before the chamber. She has a reputation as a 
tough, but fair negotiator. That is high praise on Capitol 
Hill, and I can attest to the truth of these statements. I have 
seen these skills first-hand.
    Let me tell you a story. Shalanda was a critical figure in 
helping to end the government shutdown in January of 2019. Now 
I remember the evening we cut the final deal to end the 35-day 
government shutdown, the longest shutdown in U.S. history. 
Chairman Shelby, Chairwoman Lowey, Ranking Member Kay Granger, 
and I, along with only a very few but highly trusted staff, 
went to my office in the Capitol. We continued talks that 
started earlier that day. We wanted to get away from being 
watched by everybody, from the lobbyists, to the press, away 
from the cameras. We wanted to see if we could reach a deal.
    Fortunately, Shalanda was with us. As we worked into the 
night on these difficult issues, her knowledge of a vast range 
of Federal programs, her understanding of the political 
process, and her determination to get the country we love back 
on track helped us reach a deal.
    We shook hands on it that night, and we went out, the four 
of us--two Republicans, two Democrats--and we announced it to 
the press. If you look closely at pictures of that moment, 
Shalanda is there in the background. Hopefully she is as proud 
of that moment as I am.
    It was a difficult time for our nation, but through 
determination and hard work we reached a solution, and that is 
what Shalanda is best at. She knows how to work across the 
aisle to get a deal done. Her relationships with both Democrats 
and Republicans in the House and the Senate will serve her 
well.
    I have heard it said that the Office of Management and 
Budget is one of the most powerful government agencies, that 
most Americans have never heard of. It is true. It wields 
incredible influence over not just the Federal budget but over 
policies that affect people's lives. We need people like 
Shalanda Young to help steer the agency in these important 
decisions. She is wonderful.
    Chairman Sanders. Senator Leahy, thank you very much. And 
now, under the rules of the Committee, nominees are required to 
testify under oath. Ms. Young, would you please rise. Please 
raise your right hand.
    Do you swear the testimony that you will give the Senate 
Budget Committee will be the truth, the whole truth, and 
nothing but the truth?
    Ms. Young. I do.
    Chairman Sanders. If asked to do so, and if given 
reasonable notice, will you agree to appear before this 
Committee in the future and answer any questions that the 
members of this Committee might have?
    Ms. Young. I do.
    Chairman Sanders. Thank you very much. Please be seated, 
and we would love to hear your remarks.

  TESTIMONY OF SHALANDA D. YOUNG, OF LOUISIANA, TO BE DEPUTY 
        DIRECTOR OF THE OFFICE OF MANAGEMENT AND BUDGET

    Ms. Young. Chairman Sanders, Ranking Member Graham, and 
members of the Committee, thank you for the opportunity to 
testify today as President Biden's nominee for Deputy Director 
of the Office of Management and Budget. I want to thank 
Chairman Leahy for introducing me to the Committee today.
    One of the joys of being Staff Director of the 
Appropriations Committee has been seeing the amazing 
relationships and results that have come from Senator Leahy, 
Senator Shelby, Ranking Member Granger, and my former boss, 
Chairwoman Lowey. I still vividly remember the same story that 
you just heard from Chairman Leahy, those four meeting to avert 
another government shutdown. We had just opened for 3 weeks and 
we needed to find a deal quickly, back in February of 2019. 
Even in those tense moments, Senator Leahy still took the time 
to show me pictures of his beloved family before announcing to 
the press that a compromise had been reached. I will be forever 
grateful for the kindness Senator Leahy has always shown, even 
in the most stressful environments.
    I am accompanied today by my parents, Loyce and Ronald 
Smith, who are here from Louisiana. My 92-year-old grandmother, 
who is still in Louisiana, could not make it due to COVID-19 
precautions. I want to thank them and my extended family for 
their unwavering support over the years.
    Members of this distinguished Committee, I come before you 
today as someone who grew up in rural America. I spent most of 
my youth in Clinton, Louisiana. Back then, Clinton had a 
population of around 2,000 people. It is where my maternal 
great-grandparents lived, got married, and had my grandmother 
in 1928. Somehow, even then, in the segregated South, my great-
grandparents sent their child, my grandmother, to college. I am 
grateful they prioritized education, a commitment that has 
stayed in my family for generations.
    All families deserve to see their children have that same 
opportunity to pursue their potential. Another former boss of 
mine, Chairman Obey--and I am sorry if he ever yelled at you--
used to say a budget is your values. I share that belief, and 
firmly believe the Federal budget can and should help make the 
promise of this country real for all families, in all 
communities.
    I have spent the last 4 years as both the Minority and 
Majority Staff Director of the House Appropriations Committee. 
I care deeply about the institution of Congress and have been 
very proud to serve in a position that required compromise to 
ensure the American people had not only a functioning 
government, but one that invested in their future.
    My work on the Appropriations Committee taught me that both 
sides can compromise without compromising their values, even 
when that means no one gets everything they want. I will 
forever be indebted to this institution, and if confirmed, I 
look forward to using my experience in the halls of Congress to 
ensure both branches operate with mutual respect and work 
toward solutions that will improve the lives of those we all 
serve.
    I am not naive about the challenges we face. Last year, I 
worked on the first COVID supplemental that Congress passed in 
March of 2020. We were using models of past supplementals on 
Ebola and Zika because the full scale of the pandemic was still 
unclear. With COVID deaths surpassing 500,000, our focus must 
remain on beating the virus, delivering immediate relief to 
millions of struggling Americans, and ensuring that we emerge 
from this crisis even stronger than we were before. If 
confirmed, I look forward to engaging with Members of Congress 
from both parties on this and other important work.
    Chairman Sanders, Ranking Member Graham, and other members 
of the Committee, thank you for allowing me to appear before 
this Committee, and I look forward to your questions.

        [The prepared statement of Ms. Young appears on page 30]


    Chairman Sanders. Thank you very much, Ms. Young.
    Let me begin the questioning, and, in a sense, the 
questions I am going to ask you do not come from me, really. 
They come from the President, and I just wanted to make sure 
that you are on the same page as the President in terms of some 
of the most important issues facing our country. So I am going 
to ask you the questions and your answers can be very, very 
brief.
    The President has indicated strong support for increasing 
the minimum wage in our country from $7.25 an hour to $15.00 an 
hour. Do you agree with him?
    Ms. Young. Absolutely, Chairman Sanders.
    Chairman Sanders. The President has made clear that he 
wants to see public colleges and universities tuition free and 
canceling student debt, not completely, but making progress in 
canceling student debt for working families making less than 
$125,000 a year. Do you agree with that?
    Ms. Young. Yes, Senator Sanders.
    Chairman Sanders. The President has indicated that he wants 
to lower the eligibility age for Medicare from 65 to 60 and 
expand Medicare coverage to include hearing, vision, and dental 
care. Is that something you support?
    Ms. Young. Yes, Senator Sanders.
    Chairman Sanders. Good. The President has indicated that he 
wants to see Medicare begin negotiating prices with the 
pharmaceutical industry to lower the outrageously high cost of 
prescription drugs in America. Is that something you support?
    Ms. Young. Yes, Mr. Chairman.
    Chairman Sanders. The President has indicated that he 
supports guaranteeing 12 weeks of paid family and medical 
leave. Is that something you support?
    Ms. Young. Absolutely.
    Chairman Sanders. Okay. The President has indicated that he 
supports providing universal pre-K education to every 3- and 4-
year-old in the country and making child care more affordable 
for working families. Is that something you are comfortable 
with?
    Ms. Young. I have seen it work in my own family. Yes, sir.
    Chairman Sanders. Okay. The President has indicated, and we 
will be discussing more of that in the next several months, 
creating millions of good-paying jobs by investing at least $2 
trillion to combat climate change and transform our energy 
system away from fossil fuels into renewable energy. Is that 
something you are comfortable with?
    Ms. Young. Yes, sir.
    Chairman Sanders. The President has indicated that he 
supports creating millions of additional good-paying jobs by 
rebuilding our crumbling infrastructure, our roads, bridges, 
sidewalks, schools, water systems, wastewater plants, et 
cetera. Is that something that you are comfortable with?
    Ms. Young. Yes, sir, and I have worked on it a lot of my 
appropriations career.
    Chairman Sanders. Okay. Those are my questions, Ms. Young. 
Thank you very much.
    Senator Graham?
    Senator Graham. Thank you. What is the price tag of all 
that?
    Chairman Sanders. Uh----
    Ms. Young. Senator Graham, as you know a lot of these do 
have high price tags.
    Senator Graham. Oh, just within a trillion or so, what is 
it?
    Ms. Young. It is some very important, you know----
    Senator Graham. You know I am going to vote for you, but I 
just----
    Ms. Young. I get it. It is expensive.
    Senator Graham. But I just want, like, people back home to 
know, okay, all that sounds good but, I mean, what does it 
cost?
    Ms. Young. It sounds good, but I think you have to talk 
about the details. So when we talk about the global cost if----
    Senator Graham. Is it fair to say you cannot give me a 
price tag today but you will work on it and get me one later?
    Ms. Young. I will work on it----
    Senator Graham. And give me one later?
    Ms. Young. --there are some details, I think there are some 
bipartisan nuggets in those infrastructure packages and others, 
I am sure we will get the opportunity to work on together.
    Senator Graham. Are you worried about a run on our border, 
southern border, if we keep changing the policies of 
immigration?
    Ms. Young. You can imagine I have spent a lot of time on 
this the last 4 years, and I have spent some time down in 
Southern California and Texas.
    Senator Graham. Yeah.
    Ms. Young. You visit one part of the border, you have not 
visited another part. It is all very different, the topography. 
So, yeah, I believe----
    Senator Graham. Well, let's just talk about policy. Forget 
about topography here. The Remain in Mexico policy of the Trump 
administration required people seeking asylum in the United 
States to stay in Mexico until their court date. Do you think 
that was a beneficial change?
    Ms. Young. I think there were some side effects that were 
not--I think of us as a country, including lack of access to 
counsel. Frankly, that if you are interested----
    Senator Graham. Well, we are talking about waiting there 
until your court date. I mean, there are a million and a half, 
over a million person backlog in the asylum system. Are you 
concerned that if we go back to the old policy allowing people 
to be processed in the United States, released in the United 
States for a court date years in the future, most do not show 
up, that that will entice more people to come here to seek 
asylum?
    Ms. Young. Senator Graham, I think the speed in which our 
immigration system works is a bipartisan one. No one wants an 
asylum system that takes years and years and years. I think one 
of the unfortunate side effects of Remain in Mexico is you do 
take----
    Senator Graham. Do you support changing that policy, 
eliminating it?
    Ms. Young. Yeah, I do think we need to, and think as the 
administration is taking a pause and looking to make sure we 
have an immigration system that works.
    Senator Graham. They are expecting to be 13,000 
unaccompanied minors to hit our border in May. Why do you think 
the increase?
    Ms. Young. You know, I have not seen the figures you are 
using. I think you are well-known as someone who has reached 
across the aisle for solutions. The only way we are going to 
find any solutions in immigration is a bipartisan one. So yeah, 
I am concerned, but I do think there are solutions.
    Senator Graham. Let me just, you know, again, you are 
highly qualified for the job and I am going to vote for you. 
But, you know, Senator Sanders gave sort of a laundry list of 
things that you need to support, that the Biden administration 
is proposing. Maybe we can find common ground. Maybe we cannot. 
But I worked on about every gang bill there is around here for 
immigration, and what I see is a retreat on policies that 
worked. I was in Arizona a couple of weeks ago, and this time 
this year versus last year there has been almost a 100 percent 
increase in people coming to our border.
    So for us to get immigration right we are going to have to 
turn off the magnets that draw people here and try to replace 
illegal immigration with legal immigration. Do you support more 
work visas, legal work visas for the American economy?
    Ms. Young. Senator Graham, there are several work visa 
program. I am no expert on them but I do know there are reforms 
in the works in the halls of Congress. There are some that need 
more reform than others. So yes, I do think the visa programs 
are necessary, but I do support congressional work on necessary 
reforms where they are needed, and I know a lot of that work is 
ongoing.
    Senator Graham. Do you think you are ready to be Director 
if that job was offered to you?
    Ms. Young. Senator Graham, thank you for the question. I am 
here nominated as Deputy Director. I hope, after today, you 
find me qualified for that position, and I look forward to 
hopefully winning your support.
    Senator Graham. Well, you will get my support, maybe for 
both jobs. Who knows. Thanks.
    Chairman Sanders. Thank you, Senator Graham. Now we are 
going to hear from Senator Murray via video.
    Senator Murray. Mr. Chairman, thank you very much, and 
before I begin I do want to reiterate my support for Neera 
Tanden's nomination to be OMB Director. I have known and worked 
closely with Neera for many years. So whether you agree with 
her on every issue or not, you cannot question her passion, her 
knowledge, her engagement on the issues so critical to families 
in our communities. I believe Ms. Tanden would excel and be 
director. I hope the Committee, and really the full Senate, 
will swiftly move to advance her nomination.
    Today I am very pleased we have the opportunity to speak 
today with Shalanda Young, who I believe is an excellent choice 
for this role. Ms. Young will bring a wealth of experience to 
the job. She has a deep understanding of the Federal budget and 
the appropriations process, and the know-how of working with 
agencies and Members of Congress to make progress on a range of 
critical issues.
    As our country faces multiple crises, the role of OMB is 
critical to addressing these challenges head on, from 
navigating the current public health crisis, to stabilizing our 
economy, to confronting the climate crisis, to addressing the 
rampant inequality throughout our society.
    So, Ms. Young, my question for you today is how do you see 
this administration prioritizing investments to tackle those 
crises, and what is the economic case for strong and decisive 
actions to meet this moment?
    Ms. Young. Thank you, Senator Murray, and it is good to see 
you. I have certainly been a fan from the other side of the 
Appropriations Committee in the House. I think you all will be 
busy working on the first order of business this week. If we do 
not take full steps to crush the virus, the economics of it are 
going to come home tenfold. President Biden has certainly 
talked about the next step being the need to invest in 
infrastructure. During the regular appropriations process we do 
the best we can, especially with budget caps, but the types of 
investments that are needed to ensure that this country remains 
an economic leader and competes with the Chinas of the world, 
we have to invest in our roads, bridges--I am sorry Senator 
Graham is gone--our dredging projects. Army Corps is woefully 
in need of additional funding, if we want our shipping lanes to 
remain open.
    So I certainly, if confirmed, look forward to working with 
Congress on those big investments, because if we go too little, 
if we do not do what is needed now, and I worked on the Great 
Recession package, and one of the complaints was, in 2009, it 
was not big enough. So you certainly have my commitment to work 
with Congress, I think on many pieces that have been bipartisan 
in the past, to rebuild our crumbling infrastructure.
    Senator Murray. Well, thank you very much. You know, from 
the beginning of this pandemic I said historic crises like 
these demand bold solutions. It is so important the Senate 
continues to move quickly this week to pass COVID relief and 
get direct relief to all those who are struggling, and to start 
our country on a path to more equitable future on the other 
side of this pandemic.
    Before I close I do want to again raise an issue of 
critical importance to Washington State, and that is the 
cleanup of the Hanford nuclear site. I talked about this 
previously with Ms. Tanden. I look forward to also working in 
close partnership with you to make sure the Hanford mission is 
on a cost-effective trajectory without compromising cleanup, 
and I look forward to talking with you about that once you are 
confirmed.
    And finally, Ms. Young, I do want to thank you for your 
willingness to serve in this position at such a critical time 
in this country. I look forward to supporting this nomination. 
Thank you, Mr. Chairman, for the time this morning.
    Chairman Sanders. Thank you very much, Senator Murray. 
Senator Grassley.
    Senator Grassley. There are not many people on the 
professional staff of the Appropriations Committee who are 
anxious to get away, so I question your judgment, but I am glad 
for your public service.
    It happens that I am more interested in OMB from the 
standpoint of what it does on regulatory review than what I do 
in regard to the budget part of your work. So I am going to 
start out there, and I only have one question in that area. The 
president memo entitled, quote/unquote, ``Modernizing 
Regulatory Review'' directs OMB to update its guidance to 
agencies to, quote, ``fully account for regulatory benefits 
that are difficult or impossible to quantify.''
    Under the implementation of this memo, how will agencies be 
instructed to compare quantitative and non-quantitative 
benefits and costs, and how does that differ from the current 
cost benefit analysis framework?
    Ms. Young. Thank you, Senator. I thought you might talk 
about this. I want to reiterate something you heard from the 
nominee for the Director job, that the underlying Executive 
Order 12866 has been reaffirmed by President Biden, and that 
has served both Republican and Democratic administrations, and 
it says we must do cost benefit analysis of regulations.
    What the improving and modernizing plan you have outlined, 
which I certainly hope to have a role as Deputy of looking at 
the regulatory process, is an effort to ensure that we are 
reaching communities. I talked about one that I grew up in. 
Oftentimes it is hard to quantify when you are looking at towns 
of 2,000, whether the benefit outweighs a small group of 
people. There might be high costs, but that does not mean we 
should not be doing something to make those rural lives, the 
lives of people who might be from minority racial backgrounds, 
those people living with disabilities, those things may not 
come out well in a regular cost benefit analysis, but I think 
we can all agree that we need to ensure that those amongst us 
who need the most help, we find a way. And I think that memo 
that you talked about is tasking us with finding a way to make 
sure we do not leave certain Americans behind.
    Senator Grassley. Okay. Thank you. Another thing that 
bothers me over several decades is the fact that the Department 
of Defense (DOD) is the only department of government that 
can't get a, what you call kind of a certified statement of 
fiscal responsibility, a clean audit I guess you would call it. 
The Department of Defense relies on hundreds of outdated legacy 
financial management systems. These systems cannot produce 
reliable data and are one major obstacle to preventing the DOD 
from obtaining what I said, a clean audit opinion.
    How would you approach this issue through the authority of 
the OMB, assuming you have authority, and I am not sure that I 
am up to date on that, and ensure that these systems are 
replaced or fixed so that they are able to generate complete 
and reliable financial data needed to support clean opinions?
    Ms. Young. As you can imagine, I have certainly looked at 
this from the appropriations angle, and, by the way, it was a 
difficult decision leaving someplace I have been and loved for 
a long time, so thanks for acknowledging that but hopefully I 
can continue to be in service, if confirmed.
    I think part of the issue, DOD is not the only one that has 
legacy systems that do not serve them well when it comes to 
managing their financial house. Part of the problem is a 
resource problem. We often, the choice, when it comes to 
Congress, and, you know, OMB as well, look at the traditional 
spending of DOD. So do you need a new submarine or do you need 
an IT system? Well, we probably need both, but it tends to not 
be the jazziest thing that can be sold in the halls of 
Congress.
    So you certainly have my commitment to work with you, and I 
certainly will work with the Pentagon, because this is, I think 
the least we owe the American people, to ensure that we can 
show that these agencies have clean financial audits.
    Senator Grassley. Okay. I have only got eight seconds left. 
For decades, tax regulation generally skipped the review 
process other agencies had to follow in submitting significant 
regulations to the Office of Information and Regulatory Affairs 
(OIRA) at OMB for review. This changed in 2018, when the 
Treasury Department and OMB entered into an agreement to 
subject significant tax regulations to OIRA review. Do you 
expect the Biden administration to maintain that agreement?
    Ms. Young. Senator, I expect we will use this improving and 
modernizing memo to review, and that will be one of the things, 
and I would love to work with your staff on this issue and make 
sure we are getting your concerns as we are looking at this 
review process.
    Senator Grassley. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator. Senator Wyden.
    Senator Wyden. Thank you very much, Mr. Chairman, and for 
holding this important hearing.
    I just want to touch, for a quick moment, on the matter of 
Neera Tanden's nomination, because I think colleagues should 
know that she is very much interested in two bipartisan 
priorities of a number of members. For example, Senator 
Grassley and I put together a bill to stop pharmaceutical price 
gouging, and we basically said if these companies are selling 
things like insulin and they are jacking up the prices again 
and again and again, which they have, they basically have to 
make rebates if they ever raise prices above inflation, 
bipartisan support. We also support the effort that Chairman 
Sanders is talking about here today, which is Medicare 
negotiating the cost of prescription drugs.
    So these are bipartisan issues. The same has been true in 
terms of rural America, and I asked Ms. Tanden about a matter 
that I am pursuing with Senator Crapo and Senator Risch, trying 
to help the rural communities get off the roller coaster with 
respect to their payments, and we continue to strengthen the 
Secure Rural Schools Program.
    So Ms. Tanden, as members consider her nomination, on 
prescription drugs and on the question of jobs for rural 
America, has a bipartisan track record.
    I would also like to say that I am very much looking 
forward to supporting Ms. Young for this crucial position as 
well, and I want to ask her about just a couple of quick 
questions. I think we all know that millions of Americans are 
unemployed right now. Unemployment insurance expires March 
14th. And dollar for dollar, there really are not multipliers 
out there like helping people who are laid off through no fault 
of their own, because those funds that they get are used for 
making rent and buying groceries and paying for medicine, and 
kids' shoes. And there has been a major limitation is that 
politicians can set an arbitrary end date for the coverage that 
folks and communities need to stay afloat.
    I have recently proposed, again, with the support of 
Chairman Sanders and a number of other colleagues in the 
Senate, to basically tie this assistance to economic conditions 
on the ground, and the unemployment and relief checks should 
basically be part of a stabilizer kind of system so that we do 
not get into another situation like we had in the last big 
recession, where we simply had gone too small. We ought to put 
these programs on approach tied to economic conditions on the 
ground what is called an automatic stabilizer, and I am very 
pleased to be working on this with Chairman Sanders and a 
number of colleagues.
    Ms. Young, we have been impressed by the fact that 
President Biden is very interested in this idea. Should you be 
confirmed for this position, tell us a little bit about your 
thoughts, and we would very much like to have a ringing 
endorsement today as well.
    Ms. Young. Senator Wyden, thank you for the question. So 
even though I have been on the Appropriations Committee, we 
have had the privilege of putting these packages together so I 
am absolutely familiar with the stabilizer idea. I know a lot 
of Senators and House members have tried to bring this to 
fruition. I am certainly supportive. I think we are about to 
hit another cliff on March 14th, you know, which is 
unfortunate, and I think last time we did not make the time 
frame, so we have people who have to deal with these gaps in 
assistance, which should be avoided.
    I also understand, from the congressional standpoint, some 
of the hurdles to tackling the stabilizer issue has been 
Congressional Budget Office (CBO) scoring. It is tough. The way 
scoring does has just made it an expensive proposition. But I 
think it is important enough, we have to keep working to find a 
way to make sure millions of Americans do not face these 
artificial cliffs in their unemployment benefits.
    Senator Wyden. Well, thank you, Ms. Young. I have got one 
other question, but, you know, what you are really touching on 
is the heart of what we want to do. We want to empower 
communities and we want to empower folks who have been laid 
off, through no fault of their own, to be in a position to get 
on with their lives. Let's empower them rather than 
politicians, who are the ones who, in effect, if they can set 
an arbitrary date, they are the ones who use those dates for 
leverage. We ought to be empowering people.
    Let me ask you about one last issue, very quickly, that is 
important to tribes in my State. OMB currently faces a decision 
on the poorly made recommendations of the Public Buildings 
Reform Board to close National Archives and Records in Seattle, 
Washington. This decision affect Oregonians, including our 
Klamath Tribes who rely on their access to important historical 
records. We sent a bipartisan letter to OMB detailing our 
concerns about how Native Americans and Alaskan Natives in the 
Northwest were not consulted. Do you commit to working with all 
of us to increase transparency of the process, get more input, 
and particularly consult with the tribes before any final 
recommendations are instituted?
    Ms. Young. Absolutely, Senator. I have been involved in 
many decisions and fighting those from the congressional side 
when offices close. I understand the intense need these 
regional and local offices are to ensure that people can 
petition and get services from their governments. So you 
certainly have my commitment to work with you.
    Senator Wyden. My time is up. I have heard nothing but 
positive things about you, Ms. Young, and your work, and I look 
forward to supporting your nomination.
    Ms. Young. Thank you, sir.
    Chairman Sanders. Thank you, Senator Wyden. Senator Toomey.
    Senator Toomey. Thank you, Mr. Chairman. Ms. Young, welcome 
to the Committee, and I know that this is not your decision but 
I do have to express just how deeply disappointed I am that 
President Biden and our Democratic colleagues have decided to 
undertake a purely partisan process to pass a bill with so much 
content that has absolutely nothing to do with COVID or an 
economic recovery, and that, despite the fact that last year 
Congress passed five-five--overwhelmingly bipartisan bills in 
response to the pandemic and the economic disaster that we 
faced. Those bills added up to almost $4 trillion. Each one of 
them got over 90 votes.
    The last bill, which was the second-largest economic relief 
bill in American history, was signed just about eight weeks 
ago. Hundreds of billions of dollars are still unspent. The 
economy is in a strong recovery mode. And absolutely there are 
pockets that are doing very badly, but on balance and in the 
aggregate, the economy is doing very, very well. And despite 
all that, rather than working with Republicans on identifying 
the areas that have been left behind, despite all of this 
massive, massive spending, the approach is just ignore 
Republicans, do a partisan approach, and spend almost $2 
trillion, the vast majority of which has nothing to do with 
COVID or the economic circumstances we are in. Even liberal 
Democratic economic advisors are warning--Larry Summers has 
famously said about this bill, that it brings on some big 
risks. The result could be inflationary pressures of a kind we 
have not seen in a generation. So I really am very, very 
disappointed that this is the path that we are on.
    I want to just be clear about some of the specifics, as I 
understand them, from the House-passed bill that has arrived at 
the Senate. Can you confirm that a family of four with an 
income of $150,000 last year, that had no income decline, no 
income interruption whatsoever as a result of the pandemic and 
the lockdowns, that already received $5,800, in addition to all 
the ordinary six-figure income, and under this bill they will 
get another $5,600 from taxpayers. Is that accurate?
    Ms. Young. Senator Toomey, I do believe the House bill is 
very similar to the bipartisan ones you mentioned earlier, so 
yes.
    Senator Toomey. Yeah, so this is breathtaking for most 
Americans, that affluent families, with no interruption 
whatsoever in their income, having already gotten $5,800 from 
taxpayers, now they are going to get yet another $5,600. It is 
as if money grows on trees, and the Federal Government should 
be in the business of sending affluent people checks, maybe 
periodically, maybe regularly. There is just no rational basis 
for this.
    Let me ask you this. In 2020, we now know that according to 
the Bureau of Economic Analysis--that is part of the Commerce 
Department--the aggregate revenue collected by State and local 
governments hit an all-time record high. There are a lot of 
reasons for it but that is the fact, all-time record high in 
2020. And that is separate and apart, that is revenue that they 
collected. That is separate from the $500 billion that went to 
State and local governments over the course of last year, under 
a variety of bills.
    Now we are told that the House bill and the Biden proposal 
is to send yet another $350 billion. Isn't it actually quite 
likely that a number of States are simply, with all of this 
cash being thrown at them, they are going to cut taxes at the 
State level. Don't you think that is a reasonably likely 
outcome?
    Ms. Young. Senator, you talked about President Biden's 
bipartisanship. He continues to outreach to governors on both 
sides of the aisle who continue to say that they are in need. 
It is not just a revenue loss fund but also one in which we 
expect those States and locals to continue to provide necessary 
services as people depend on their local units of government.
    Senator Toomey. I understand, but if you are collecting an 
all-time record level of revenue, probably you can provide the 
services that ordinarily provide, and if in addition to an all-
time record amount of revenue you got half a trillion dollars 
from the Federal Government, it seems like there is lots of 
money to go around.
    Last question. I wonder, do you think there is any downside 
whatsoever, any reason at all, any concerns, about 
systematically paying people more not to work than they make 
working, designing an unemployment system whereby a very 
substantial percentage of workers will get paid more to sit at 
home than they get paid to go to their work? Is this how we 
should demonstrate our commitment to the dignity of work?
    Ms. Young. That was a phrase I was going to use. Certainly 
people I know from all walks of life have dignity of work. They 
are not accepting government assistance, in my opinion, and in 
some of the data we have seen they are using this enhanced 
unemployment to make ends meet.
    Senator Toomey. I see my time has expired. Thank you, Mr. 
Chairman.
    Chairman Sanders. Thank you, Senator Toomey. Senator 
Stabenow.
    Senator Stabenow. Thank you very much, Mr. Chairman. First, 
Ms. Young, congratulations on your nomination. I have heard 
nothing but extremely positive things, both from Democrats and 
Republicans, and I look forward to working with you if you are 
confirmed, which hopefully will happen. I also strongly support 
Neera Tanden, and I think the two of you would be really an 
excellent pair, and I am hopeful that we will have both of you.
    I do want to say to my friend who just spoke that when we 
talk about bipartisanship, certainly in the last year in the 
Coronavirus Aid, Relief, and Economic Security (CARES) Act we 
had a bipartisan deal. We moved on some things, but then we got 
to, I think it was May, and the Senate Republican leader said 
he thought no more needed to be done at that point, you know, 
that things were okay, we did not need to act. It took from May 
until December to pass additional support for American families 
and to address the pandemic and issues around trying to get 
children back to school safely.
    We do not have that much time now. We just do not have time 
to wait another six, eight months. What we have is bipartisan 
support in the country, and we have got to get as many shots in 
people's arms in possible. We have got to help people in small 
businesses, small family farms get through and survive this 
pandemic, and we have got to make sure every child can get back 
into school safely, period. And so I am glad we are moving, and 
we certainly would welcome bipartisan support from our 
colleagues in the Senate.
    Now on question, let me just say that when I talk--there 
are so many things on your plate that I want to talk specifics 
on things that I am involved with. As the Chairwoman of 
Agriculture, Nutrition, and Forestry Committee, right now when 
we look at the climate crisis we have a great potential to 
harness our farms and forests as leaders in tackling the 
climate crisis. And I am working on several bipartisan bills, 
along with my great friend, Senator Braun, and other 
colleagues, and I look forward to working with the 
administration to enact them, which will give Secretary Vilsack 
and others at U.S. Department of Agriculture (USDA) new tools 
to address this urgent issue, in a voluntary, bipartisan, 
producer-led way, which is our focus.
    So if confirmed, will you commit to working with us to 
prioritize climate-smart agriculture and forestry investments 
in the President's upcoming budgets and through other actions 
at the Department of Agriculture and elsewhere?
    Ms. Young. You have my absolute commitment to work with you 
on those very important issues.
    Senator Stabenow. Great. Let me talk about something else 
that is certainly at the forefront in the pandemic, and that is 
the mental health of millions and millions and millions of 
Americans. We have traditionally, historically underfunded 
behavioral health systems in this country. The good news is 
that we are making progress.
    My friend, Senator Roy Blunt, and I have been leading 
efforts strongly supported on both sides of the aisle, to 
improve quality care through the creation of new certified 
community behavioral health clinics. These clinics, among other 
things, require high-quality standards, 24-hour, 7-day-a-week 
crisis services, outpatient mental health care, substance abuse 
care, and working with emergency rooms, law enforcement, and 
veterans' groups, which is very important.
    So when we look at this we are actually saving money as 
well as doing something very effective. The last Health and 
Human Services (HHS) budget found that these services led to a 
63 percent decrease in emergency department visits for 
behavioral health, 60 percent reduction in time spent in jail, 
which is why this is so strongly supported by sheriffs and 
police chiefs and so on, and a 41 percent decrease in 
homelessness.
    The challenge for us is quantifying that in terms of the 
budget. First of all, we should be covering these service in 
health care above the neck as well as below the neck, and could 
you talk about the role of OMB in quantifying some of the 
downstream savings from increased access to behavioral health 
care, and can we count on you to focus on those issues in 
upcoming budgets?
    Ms. Young. You absolutely can, and I am very proud of the 
behavioral and mental health funding in the current COVID 
package. It is much needed. It is an area, again, where I think 
the regular appropriations process--would have loved to have 
done more, but we have certainly been living under budget caps 
for the last ten years. So COVID has exacerbated these 
problems. It is appropriate that it be in this package, and I 
am glad to see that it is.
    Senator, you certainly have my commitment to helping 
quantify the benefits of this funding and working to ensure we 
have adequate funding and do better by those line items.
    Senator Stabenow. Thank you so much. Mr. Chairman, I think 
probably my time is up. I will just follow up with Ms. Young 
about another passionate, important topic, which is making sure 
that we are supporting all efforts to protect our Great Lakes.
    So thank you very much. I look forward to supporting your 
confirmation.
    Chairman Sanders. Thank you very much, Senator Stabenow. 
Senator Kennedy.
    Senator Kennedy. Thank you, Mr. Chairman. Ms. Young, how 
are you?
    Ms. Young. Good, sir. How are you?
    Senator Kennedy. I am okay. I want to ask you about the 
proclivity of the Federal Government to persist in paying dead 
people. You probably read about it, but last--let me see here--
last spring, when we sent out our first batch of coronavirus 
relief checks, we paid out $1.4 billion to deceased Americans. 
And we do not get this money back, and, of course, in some 
instances, in many instances the checks are cashed, which 
obviously is indicative of fraud.
    We have passed legislation, and let me back up. We are not 
sure how much we pay out in checks to dead people every year, 
but it is a lot. It is in the billions and billions and 
billions of dollars, and there is a lot of fraud involved.
    The Congress passed legislation to try to fix this problem. 
I will not bore you with the details, but because of the 
politics we had to put in a provision that the legislation 
would not really take effect for 3 years. So we basically had 
to agree, because of the politics, that we would continue to 
pay dead people for 3 more years.
    Can you do something about that when you are running OMB?
    Ms. Young. Senator Kennedy, I think you have pursued this. 
I know it is very important. You pursued it in the Financial 
Services construction of Appropriations Committee so I am very 
familiar with your work here and your consistent drumbeat. I 
think part of this is the government systems. We talked about 
this earlier, with a different Senator, is we have to do better 
with our IT systems. That is definitely part of the problem, 
and I will certainly commit to working, just like I did 
previously, in improving these systems so that we--no one wants 
fraud, waste, and abuse in important government programs. It 
does a disservice to those who really need government services. 
It puts a target on their back. So I think there is a 
bipartisan commitment to make sure we do what we can to weed 
out----
    Senator Kennedy. Can I interrupt you, Ms. Young----
    Ms. Young. Yes, sir.
    Senator Kennedy. --because, look, I have watched you and I 
have followed your career, and you are a very smart person and 
I think you can fix this. And, to me it is very simple. We, 
meaning the Federal Government, get data every year, every 
month, every day from the States about who died. It is not 
perfect data but we get it, and it goes into a database at the 
Federal Government. But the group in charge of maintaining that 
database does not really share it with other agencies. It is 
complicated. It is needlessly complicated.
    And I think that you are a very smart person. I think that 
if you said, look, you call the White House, speak to the 
President, and say, ``Mr. President, this is low-hanging fruit. 
We really need to stop paying dead people. It is embarrassing. 
And Congress has acted on it but because of the politics it had 
to delay the implementation of the bill for 3 years. Can't we, 
Mr. President, issue some sort of Executive order and stop 
paying dead people? I mean, don't we owe that, at least to the 
taxpayers?''
    And I know it is complicated, you know, but it is 
needlessly complicated. It is very simple. We have the data. It 
may not be perfect, but it is better than nothing, but we 
continue to send out the checks. And I think you are going to 
be running OMB. I think you could stop it.
    Ms. Young. Well, Senator Kennedy----
    Senator Kennedy. I have full confidence in you.
    Ms. Young. Thank you for the full confidence. I appreciate 
that. If I am confirmed as Deputy you certainly have my 
commitment to work with you on this. You have raised some good 
points.
    Senator Kennedy. You may be more than Deputy. You may be 
the sheriff. I do not expect you to comment on that.
    Ms. Young. Thank you, sir.
    Senator Kennedy. Help me do something about this. I know 
you can do it.
    Ms. Young. I look forward to working with you. I do commit 
to work with you and your staff on this issue. As you said, the 
American people deserve a Federal Government who gets its data 
right, and I think it is a bipartisan effort to weed out any 
whiff of fraud, waste, and abuse. Thank you.
    Senator Kennedy. Thank you, Ms. Young. Thank you so much.
    Chairman Sanders. Thank you, Senator Kennedy. Senator 
Whitehouse.
    Senator Whitehouse. Ms. Young, how are you? Welcome. I have 
two things that I want to show to you. The first is this book, 
which is a compilation of a whole variety of reports that 
relate to, as the title says, The Economic Risks of Climate 
Change. We all know that it is going to change our physical 
world. We all know that it is going to raise sea levels. We all 
know it is going to change temperatures, move fisheries around, 
change weather, create all of these physical, biological, 
natural consequences.
    But we have not focused as much as I think we should have 
on the economic consequences. For instance, when sea levels 
rise and people who have predictive capability are able to see 
where the sea levels are going to rise to, they are going to go 
to mortgage companies, and they are going to go to insurance 
companies, and they are going to say, ``Hey, I have got some 
information that you ought to have before you insure that 
house, or before you issue a mortgage on that house.''
    So, nonetheless than Freddie Mac, the big mortgage 
behemoth, has warned that we are going to have a coastal 
property values crash when those sea level rise warnings hit 
the mortgage and insurance markets that support coastal 
property, and that it is going to be worse than the 2008 
mortgage meltdown. So that is a pretty serious warning. That is 
just one.
    We have got a Nobel Prize winner, testifying under oath, 
about the catastrophic economic consequences we are looking at. 
We have got major banks. We have got the Fed. We have got 
foreign sovereign banks. We have got major, pretty rough 
corporation organizations who are not exactly eleemosynary. And 
they are warning, in their own interests, that this is a big 
deal.
    So I would ask you to please flip through this--we will 
give you a copy--because I think it is going to be really 
important for this administration, which has done a great job 
on tackling the climate change problem, at least in its early 
initial steps--to make sure that these warnings are made loud 
and clear. It is probably the most warned of hazard that we 
have ever seen, but because the fossil fuel industry has got so 
much of our Congress locked up in its grip we have not 
responded to those warnings.
    So that is one. If you could take that and also take this 
issue seriously. I will be hounding you about it, obviously.
    Ms. Young. I am from the State of Louisiana, and----
    Senator Whitehouse. So you know it.
    Ms. Young. Yes.
    Senator Whitehouse. Yes. You are losing more of your 
coastline than I think any other state in the country right 
now, and Rhode Island, my State, is looking to having to redraw 
its map. Senator Kaine here is looking at losing Norfolk Naval 
Station, because you can build the piers up higher and higher 
at Norfolk Naval Station but you cannot build up the schools 
and the markets and the roads and the entire community that 
supports that naval station there. So the former head of his 
naval station has warned that in 20 years that thing is gone. 
We are going to have to re-site that naval station.
    So this is all serious, and because of fossil fuel mischief 
a lot of Members of Congress will not take it seriously, and we 
have got to make sure people understand. So thank you.
    The second thing is a health care thing. I use this graph a 
lot. CBO, back around the time that we did the Affordable Care 
Act (ACA), did a prediction of American health care costs were 
going to rise, which is this top line. I turns out, after the 
Affordable Care Act got passed, health care costs did not go up 
so fast, and we actually got the lower line as our experience. 
So if you take the current projection from our lower experience 
and compare it to what that projection is tagged onto the 
previous experience, you get this green differential, which, in 
the next 10 years, is $6 trillion savings on Federal health 
care.
    In 2024, we are going to hit the Medicare trust fund. We do 
not have much time. We have got to fix this. Nobody is going to 
cut benefits. But whatever is happening here that saves $6 
trillion, we need to do a lot more of. And I submit to you that 
it is quality improvements and incentives in the health care 
system, it is getting away from fee-for-service treadmill in 
the health care system, and it is really pushing the 
accountable care organizations, the provider Accountable Care 
Organizations (ACO), that are doing such a good job.
    I have got two of the best ones in Rhode Island. World 
class. They are not the best in Rhode Island. They are the best 
in the world. They are the best in the country. They happen to 
be in Rhode Island. And they are driving costs down, their 
patients are getting better outcomes, everybody is happier with 
the better service. It is win, win, win. But we have got to 
understand that for the big deal that it is, and connect those 
little ACOs to this big $6 trillion, and fix the mess that our 
health care system is right now, and I hope that we will work 
together on that also.
    Ms. Young. Absolutely, sir, and the bill you are 
considering this week does have some improvements, some 
increased subsidies for ACA. Hopefully can get more people in 
it, and I think there is a lot more to do on the ACA front to 
ensure that that graph continues to get bigger.
    Senator Whitehouse. Yeah. We can spread that actually 
further with more work that is good stuff. Thanks, Chairman.
    Chairman Sanders. Thank you, Senator Whitehouse. Senator 
Warner.
    Senator Warner. Thank you, Mr. Chairman, and, Ms. Young, it 
is good to see you, at least virtually. I think you have been 
very impressive in your answers. I do want to say, though, that 
I know some of my colleagues on the Republican side have made 
the decision about Neera Tanden. I hope some will still 
reconsider. I look forward to supporting you, Ms. Young, but 
hope is still that, at least initially, I will be supporting 
you for Deputy Director.
    I want to get to three quick questions. One, Virginia is 
home to about 170,000 Federal workers. They have been under 
enormous assault under the Trump administration as the previous 
administration tried to politicize the workforce. I saw it 
particularly in my role in the Intel Committee what has 
happened to our intel workforce. And while I was heartened by 
the Biden administration's initial actions to repeal the 
Schedule F Executive order that Trump tried to put in in the 
waning days of his administration, from bargaining rights to 
pay to just general morale, the Federal workforce has been 
hurting. Layered on top of that, obviously, all the additional 
constraints with COVID.
    Can you speak on how you could coordinate with Office of 
Personnel Management (OPM) to deal with this overriding issue 
of moral in the Federal workforce?
    Ms. Young. Senator, I pause because I started my career as 
a civil servant at National Institutes of Health (NIH). I 
understand how much more this country has benefitted by having 
a motivated Federal workforce, who shows up every day, does 
over and beyond. They could be in private industry, a lot of 
them, making more than they do in their government service. So 
it is not about a job for the Federal workers that I have known 
and worked with. It is about service.
    So that is one of the things I hope, if confirmed as Deputy 
Director, certainly within OMB, is to empower and bring a lot 
of that back to the career staff. I know that is a goal of 
mine, I hope to leave, during my time of service, is to let 
them know that we appreciate their service, we trust that they 
are good stewards of Federal policy, and you certainly have my 
commitment--some will need congressional fixes, congressional 
pardoners--to work with you to make sure that our Federal 
workers are getting the benefits necessary.
    Often in these budget deals that come up one of the main 
losers are Federal workers. We tend to cut their retirement. We 
tend to do things that do not, I think, do a lot for morale. So 
you certainly have my commitment to work with you to bring 
back, I think, some of the things that have eroded over the 
last few years.
    Senator Warner. Well, I would look forward to working with 
you on that. I had that issue over my 12 years here, something 
started by Ted Kaufman when he served as a Senator from 
Delaware, going down on the floor of the Senate, calling out 
the great contribution of Federal workers on an individualized 
basis. Your work at NIH, you know, as you said, a lot of these 
workers could be making a lot more. This was a piece of public 
service and it is going to be great working with a partner who 
supports that service.
    Kind of related to that, one of the areas that the Chairman 
has been a big advocate, and I have generally been supportive 
of during the period of COVID, trying to help workers with 
increased unemployment benefits and trying to make sure we 
cover a whole group of folks, for example, gig workers and 
others I think is a very positive action. One of the things 
that we have had some debate on is whether the economy includes 
some of that additional benefits cut back. And we have had, I 
think, a good debate on this issue, but the challenge has been, 
to be able to do that, we have got to upgrade our IT systems 
within the Federal Government. Now, literally, we could not 
even put in place economic stabilizers in a rational way 
because our IT system is so bad. We have dramatically 
underinvested, not just under Trump but candidly even under 
President Obama. There is something called the Technology 
Modernization Fund (TMF). I hope you will [inaudible] 
legislation that I have got. I know President Biden put forward 
a $9 billion investment and unfortunately it got cut back in 
the House to $2 billion.
    In your last two seconds, can you talk to upgrading our 
technology?
    Ms. Young. Yes. You heard it through several Senators' 
questions that, you know, it is central to many issues we have 
with payments to individuals, with ensuring our financial 
audits, a lot of it comes back down to technology, and you 
certainly have my commitment to work with you. I am very 
familiar with the TMF, making sure we get investments there.
    Senator Warner. Thank you, Ms. Young. I look forward to 
supporting you. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Warner. Senator 
Merkley.
    Senator Merkley. Thank you, Mr. Chairman, and, Ms. Young, I 
just want to jump right into questions since we do not have a 
lot of time. We had the situation in previous administrations 
where OIRA, part of OMB, has proceeded to be a place where 
rules go and disappear, and never to be seen again, or to sit 
untended for years. Things like mercury air toxics rule, 
rearview cameras in cars, the issue of a rule related to coal 
ash.
    We have the vaping rule, which we had all these illegal 
products on the market and nothing happened, and millions of 
American youth became addicted to vaping, a situation very hard 
to reverse which will affect health care costs and the quality 
of life for millions of Americans for generations to come.
    And so how do you feel about this section of OIRA becoming 
just this place where regulations go to suffer and die with no 
transparency about what is happening?
    Ms. Young. Senator, it is certainly not the statutory goal 
of OIRA and something we should not strive to have that opinion 
of OIRA. I do believe we can use the presidential memo calling 
for OMB to lead an effort to improve and modernize, to do 
something about that perception, and work with our partners in 
Congress to make sure that we fix this issue.
    Senator Merkley. Thank you, and I look forward to talking 
with you when we end up with challenges of disappearing 
regulations in OIRA in the future.
    I want to turn then to the cost benefit analysis that you 
referred to before, and the decision to keep it in place. Often 
that cost benefit analysis does not capture externalities, and 
certainly not the social cost of carbon. Can you speak to how 
OMB's cost benefit analysis can reflect the true cost of 
decarbonization or the true advantages of decarbonization?
    Ms. Young. Senator, I think you are speaking to the very 
core of the presidential memo that we have talked a lot about, 
on improving and modernizing. I think it is good to keep a 
basic set of facts, a cost benefit, but you are absolutely 
right. You see it in carbon, and actually not just carbon, in 
greenhouse gases, you see it in regulations that have to do 
with servicing people who might be from rural America or living 
with disabilities, that often looking just at costs and 
benefits is not enough to understand the full impact. If our 
goal is to improve the lives of all Americans, I think we have 
to, even if it is difficult, find a way to quantify these 
things, because as you mentioned and as Senator Whitehouse has 
mentioned, climate change is an economics issue as much as 
anything.
    Senator Merkley. Does that mean that the OMB cost benefit 
analysis will now incorporate the social cost of carbon?
    Ms. Young. I think, Senator, you have seen administrative 
action. I am not there yet, but if confirmed I am happy to get 
back to you on the details. I cannot speak about every single 
action that has occurred, since I am not there, but my 
understanding on the social cost of greenhouse gases, with 
carbon being one part of that, there are working groups that 
have reformed, that have been done away with in order to help 
quantify that cost.
    Senator Merkley. Thank you, Ms. Young. President Biden, in 
a related issue, has committed to directing 40 percent of green 
Federal investments towards environmental justice communities, 
necessitating a sort of equity screen and recognizing that low-
income communities are often hit particularly hard by 
environmental effects. But that has to be tracked. Do you see 
OMB as having a role in tracking and targeting those 
investments to address that 40 percent goal?
    Ms. Young. OMB will be a part of that process, as stated in 
the President's Executive order on climate change. There is a 
specific section dealing exclusively with environmental justice 
and it lays out the members of the council that will deal with 
those issues, and OMB will be a part of that.
    Senator Merkley. Thank you. And finally, how do you 
envision OMB working to drive solutions to the student debt 
crisis in our country?
    Ms. Young. I have to imagine OMB will be central to 
offering ideas and legislative solutions. I do know that it 
will take a partner in Congress to ensure we deal with that 
issue. You do not normally like breakups, but one of my 
breakups has been with Navient, myself, 3 years ago. It is 
crushing, the student loan debt, and I am one of the lucky 
ones.
    Senator Merkley. I am sorry. I missed that. Your own 
personal loan?
    Ms. Young. My own personal loans. It was one of the best 
breakups I have ever had, was to pay the last payment to 
Navient, and again, that was 22 years after I started college, 
and I am one of the lucky ones.
    Senator Merkley. Well, congratulations. I hope you had a 
big party at that moment, and I do hope that OMB will work in 
partnership with the administration on the cancellation of loan 
debt. I support the broader goal of $50,000. It would be 
incredible stimulus and an opportunity for so many to escape 
this deep burden that other developing countries do not impose 
on their aspiring students. But even at the lower level of 
$10,000, it is one thing to have it as a vision and it is 
another to actually make it happen, and I hope OMB can help 
with that.
    Ms. Young. Thank you.
    Chairman Sanders. Thank you very much, Senator Merkley. 
Senator Braun.
    Senator Braun. Thank you, Chairman Sanders. Good to be here 
discussing something, Ms. Young, that to me--I have been here a 
couple of years, and I know you have been in the House part of 
Appropriations. I have run an enterprise that has had to really 
be worried about what lies down the road. In other words, how 
do you get things to work out financially?
    I see a trajectory that we are on that just, to me, looks 
unsustainable, and whether you believe in the modern monetary 
theory. With what you crafted, being involved in 
appropriations, where we are at currently, where we have got 
structural, trillion-dollar deficits. We have got a balance 
sheet that, I do not care how good you are as a Chief Financial 
Officer (CFO), would be something you could not be proud of. 
Here, it is different. You know, we are lucky that we are in a 
place where we can borrow for nearly zero. That changes as soon 
as we are not the reserve currency. You have got an impending 
crisis with the Medicare trust fund being completely depleted 
here in a little over 5 years. We have been paying into it, 
employers and employees, since the '60s. It is social security 
that is even more ominous in terms of what would happen if you 
let it continue on the trajectory.
    Tell me a little bit about how you think, for anyone here, 
especially that looks to the Federal Government as a place that 
you want to do more with, how do you keep it in a healthy place 
going from here forward, and what do you think your input has 
been towards being an appropriator, that, to me, looks like no 
one really cares about how this is going to work out for future 
generations.
    Ms. Young. Senator Braun, you know, I perfectly acknowledge 
long-term debt has to be addressed. It is probably only going 
to be addressed with bipartisan solutions. But I do have to 
turn to, you know, people smarter than me, and I would 
certainly listen to Secretary Yellen, who tells us we will be 
on a worse economic trajectory if we do not do something--not 
just do something--if we do not ensure the health of American 
citizens and then turn our full sights to ensuring investments 
for our economic recovery. At some point we are going to have 
to turn to long-term, but I do not think we have ever faced 
anything like this pandemic before.
    So I certainly agree with you, but I do think there is 
still room, as you mentioned. It is very cheap to borrow right 
now, which is something I think we also have to look at when we 
are looking at the response to the pandemic.
    Senator Braun. So normally when you borrow money you do it 
for something that is a tangible asset, an investment, only 
borrow to invest, never borrow to spend or consume. Of course, 
we consume everything here. I think that is another thing to 
think about.
    Let me ask you, on the revenue side of the ledger. 
Everybody is really good at spending here. I have had 
conversations with folks on the Budget Committee. Can you raise 
revenue? Do you think it is realistic that you can bridge the 
structural deficit gap with that, and how would you consider 
doing that? And can you do that in a meaningful way before you 
start to throttle back economic growth, and also, looking at 
maybe what was in place pre-COVID to whereas somebody off the 
street, I thought we had it pretty well hitting the mark. We 
helped small businesses through the Tax Cut and Jobs Act, C-
corps got probably way too big a break that they did not need. 
What do you think about the revenue side, that no one wants to 
talk about?
    Ms. Young. Senator Braun, I mean, I am sure you already 
know this. President Biden has looked to increasing the tax 
rate for those over $400,000, and for some corporations who, I 
think, some of the lessons from the tax break did not do as 
much investing in their personnel as was hoped or touted before 
that act.
    So I do think there is some room, on the revenue side, to 
help out long-term debt. I do think there are some other things 
besides revenue and spending. Senator Whitehouse talked about 
the cost of health care. We have got to do something so the 
government is not paying nearly as much for health care and 
neither are private citizens.
    So I think there will have to be a multi-pronged view of 
how we do this, but, you know, we cannot cut benefits for 
people that have paid into them. I have my parents here. You 
know, they are called entitlements for a reason. People have 
paid their entire careers in their lives for these benefits, 
and part of that is ensuring that health care does not cost 
what it costs to provide it to the American people.
    Senator Braun. Well, thank you, and I think that is a bit 
of realism, and it is going to take some really hard decisions 
that, in my observation, do not happen often here, along the 
lines of having some political will to make those tough 
decisions if we are going to have it sustainable in the long 
run.
    Ms. Young. Thank you, sir.
    Senator Braun. Thank you.
    Chairman Sanders. Thank you, Senator Braun. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair, and thanks, Ms. Young. 
Congratulations to you. I intend to support you, and you have 
had a distinguished public service career.
    Two editorial comments and two questions. One editorial 
comment, I am not sure you should need Senate confirmation. I 
think if President Biden wants to hire you to be Deputy 
Director I think he should be able to hire you. I am in my 
ninth year in the Senate, third President, and an observation 
about the Senate is I think we have too many Senate-confirmable 
positions, and each one chews up some Committee time and then 
chews up some floor time. And by chewing up finite time then 
legislative time gets shrunk. So I might start urging that on 
my colleagues. I would love to have you here to ask you tons of 
questions, but I do not necessarily think that Deputy Cabinet 
Secretaries and Deputy Directors of agencies should need Senate 
confirmation. That is editorial comment number one.
    Number two, Neera Tanden. The controversy about Neera is 
largely over her social media comments, which could be levied 
at virtually all of us. I mean, it is partly a challenge for 
the individual, and she has got to own that, and she has 
apologized for it, and it is partly the world we live in, where 
we say things in the heat of the moment and social media gives 
us the ability to do it.
    My editorial comment is this. We faced so many nominees in 
the past administration who had really intemperate things to 
say in social media accounts, including about me, but they 
apologized. And when they apologized their apologies were 
accepted by virtually all Republicans and a lot of Democrats.
    So Neera Tanden has apologized, and I just worry that there 
is a double standard with her that why would we accept the 
apologies of others, about comments on social media, that, if 
anything, were more extreme, and not accept Neera Tanden's 
apologies? And I am nervous about that, and I ask that question 
not just to Republicans. I ask it to Democrats.
    Two questions.
    Ms. Young. And, Senator Kaine, I know you were speaking, 
but I have not had the chance to weigh in on this question. I 
certainly think before this Committee you saw Neera Tanden 
apologize profusely about the tweets. I think what you also saw 
is an expansive knowledge of various policy areas. And 
certainly I have gotten to know Neera over the last few weeks. 
We did not have much interactions before then, and I do think 
we both bring some skill sets in different areas where we make 
a great team, if both of us were confirmed. So thank you for 
those comments and I hope if you listen to her time before this 
Committee and Homeland Security and Governmental Affairs 
Committee (HSGAC), she really did lay out her vast policy 
experience.
    Senator Kaine. I completely agree with you. Now, on to the 
two questions. One of the things about your nomination that 
makes me the happiest is that you have 14 years' experience 
working in the Article I branch. The OMB, in the previous 
administration, treated us like we were an annoyance on a good 
day, or an enemy on a bad day, and there were more bad days 
than good days. And they particularly treated those in the 
minority party, the Democrats in that administration, as the 
enemy. I am not sure they were that good to the majority party 
either.
    So, for example, with issues like congressional requests 
for information, you will take an oath, should you be 
confirmed, to the Constitution of the United States, not to the 
President. Can I have your assurance--and you have already been 
asked this by Senator Sanders, but I want to have your 
assurance on this. Will you treat, as somebody who has sat on 
the congressional side of this dais, will you treat requests 
from Senators on this Committee, be they Democratic or 
Republican, with respect, and try to be as responsive as you 
can, as promptly as you can?
    Ms. Young. I cannot answer that more emphatically. Yes, and 
you are absolutely right. I have heard from Republican members 
as well who not only could not get information but would see 
their things important to them go to OMB to never be seen 
again.
    Senator Kaine. And if you have a problem, or anybody at 
OMB, with committee members just like pestering you so you 
cannot do your work, you can take that to the Chairman and the 
Chairman can be an enforcer and tell us to knock it off. But 
reasonable requests should be dealt with in a prompt fashion, 
whether they are made by Republicans or Democrats. I am glad to 
hear you agree with that, and I knew you would.
    Second question. So I came into the Senate in January of 
2013. Sequestration and budget caps went into effect in late 
February. We had a 2-week government shutdown in October. We 
have had endless CRs. We had a month-long shutdown of a portion 
of the U.S. Government in late '18 and 2019. I have an opinion 
about how I would grade the Federal budget process since I have 
been here. If I was asking you to grade the Federal budget 
process, what grade would you give it?
    Ms. Young. Wow, that is a tough one, on the process.
    Senator Kaine. Well, not the process, not the process as in 
the statute, but grade our performance.
    Ms. Young. Okay. Get away from the process----
    Senator Kaine. Rate our performance.
    Ms. Young. --which is often ugly. When we finish I will 
give it an A, because we got there, and I think there is a lot 
of value in that.
    Senator Kaine. I am just going to say, I would not give it 
an A, and I would love an acknowledgment that there should be 
some significant improvement. That is not going to affect my 
vote.
    Ms. Young. There has to be improvement, Senator. I still 
find a lot of intrinsic value in working through an annual 
process, and you and I talked about this, as someone who loves 
this institution. And I have told you this personally, my 
concern would be if anything would keep Congress from doing 
that bare-knuckle negotiations, where you got to hold the 
Executive branch accountable each year. So yes, it needs 
improvement, but I would hate to see anything that required 
less congressional action because of that.
    Senator Kaine. Thank you, and thank you, Mr. Chair.
    Chairman Sanders. Thank you, Senator Kaine. Senator Van 
Hollen.
    Senator Van Hollen. Thank you, Mr. Chairman and Ranking 
Member, and I was pleased with Neera Tanden's nomination to be 
Director of OMB, and I am very pleased with yours to be the 
Deputy Director. Congratulations.
    And I want to pick up a little bit on the process, but 
especially the part of the process that has been broken, at 
least over the last 4 years. And as the staff director of the 
House Appropriations Committee you were deeply involved in 
addressing the illegal withholding of funds by OMB during the 
last administration, the most prominent case involved 
withholding security assistance for Ukraine.
    And I asked at the time that the Government Accountability 
Office (GAO), the nonpartisan GAO, review that matter and 
determine whether a withholding violated the Impoundment 
Control Act (ICA), which, as you know, is the law that is 
supposed to prevent the Executive branch, regardless of party, 
for unilaterally refusing to spend funds that are provided in 
laws passed by the Congress. GAO looked at it and confirmed 
that the Trump administration violated that law.
    As a member of this Committee, the Budget Committee, we 
were able to put together bipartisan legislation that included 
a provision I proposed to strengthen the Impoundment Control 
Act and increase transparency for the apportionment process at 
OMB.
    We have not yet passed that legislation. I would like to 
get your commitment to work with us to strengthen the laws that 
protect constitutional separation of powers and Congress' power 
of the purse. Having come from the Appropriations Committee I 
hope you will work us to do that.
    Ms. Young. Again, something near and dear to me, and you 
absolutely have my commitment to working on those. I know there 
are lots of efforts to strengthen the ICA, and I think also in 
my commitment to you I will also, you know, commit to working 
with GAO, who are the arbiters in these things, and they found 
wrongdoing, and I think we should listen to them when they make 
those, I think, very thoughtful judgments.
    Senator Van Hollen. I appreciate that. Look, there is a 
process, and GAO has pointed out some things we can do to 
further strengthen that process. Obviously, the Executive 
branch has a role in budget consideration, but as you know, 
once Congress has spoken it is imperative that the 
administration, any administration, follow the law with respect 
to those decisions.
    I would like to just briefly ask you about the issue of 
long-term unemployment, because we are all hopeful that as we 
beat this pandemic and with the passage, I hope, of the 
emergency bill, that we expect to pass before the middle of 
this month, that the economy will begin to improve. And we hope 
to see steady improvement, more people going back to work.
    But I am very worried about individuals who are long-term 
unemployed. We have over 4 million long-term unemployed 
Americans right now. These are individuals who have been out of 
work for more than 6 months, looking for work. On top of that 
we have over 7 million Americans who have essentially dropped 
out of the workforce, and the Chairman of the Federal Reserve, 
Chairman Powell, in response to a question I asked him the 
other day, indicated that we are going to have to be very 
intentional about policies to help the long-term unemployed. 
Even before the pandemic, when the economy was working better, 
we had over 1 million Americans who were long-term unemployed.
    I do not expect you to commit to any details, but just 
would you agree that the issue of long-term unemployment is one 
that we have to address with intentionality, meaning we cannot 
just expect that as the economy improves that the long-term 
unemployed will automatically find work, because we know that 
has not been true in the past.
    Ms. Young. Senator Van Hollen, thank you for bringing this 
up. I think one of the goals of government is to ensure that 
those who are easily left behind, that we ensure that they are 
not. So I look forward to working with you on this.
    Senator Van Hollen. I appreciate it. These are individuals 
who want to work, they are out there looking for jobs, and 
really through no fault of their own unable to find it. And it 
hurts them, and, of course, it hurts the larger community when 
we are not able to take advantage of their skills in growing 
the economy.
    So thank you, and, Mr. Chairman, thank you.
    Chairman Sanders. Thank you very much, Senator Van Hollen. 
Senator Padilla.
    Senator Padilla. Thank you, Mr. Chairman. Thank you, Ms. 
Young, for your willingness to serve. I know in a prior hear 
for the Director of OMB position I was able to ask questions 
generally in regards to concern about equity and the role OMB 
can play in policymaking and budgeting to address equity 
challenges in America. We also touched on the economic 
contributions of immigrants over the course of our nation's 
history. I know earlier in this hearing we have heard a lot of 
questions about a number of issues, from climate to COVID 
response and everything in between.
    I say all that because I want to raise a couple of issues 
that are unique, important not just to California, my home 
State, but the nation as a whole, so let me jump into it.
    The first of the two is housing and homelessness. The 
COVID-19 pandemic has exacerbated our nation's ongoing 
affordable housing and homelessness crises. Nearly 1 in 5 
renters across the country, including an estimated 2 million 
Californians alone, have been unable to catch up on their rent. 
Even before the pandemic, a lack of affordable housing and 
rising rents pushed too many into our societal safety net and 
even into homelessness, with now more than 150,000 individuals 
experiencing homelessness in California, which could get worse, 
with evictions related to our recent economic downturn.
    So as we look to build back better, will you commit to 
ensuring that the President's budget requests seek significant 
increases for critical housing programs such as Committee 
Development Block Grant Program, the Home Investment 
Partnership Program, homelessness assistance grants, and 
expanded Section 8 vouchers? And I welcome any other 
recommendations or suggestions you have in this regard.
    Ms. Young. Senator, I certainly do commit--I am not there 
yet so I have not been involved in the budget development. But 
those are programs I have supported during my time as staff 
director of the Appropriations Committee, so I certainly will 
look to work with you to make sure that there is adequate 
funding in not just the annual programs but I do believe there 
is still work to be done as we recover from COVID, and possible 
other legislation.
    Senator Padilla. Thank you for that. I look forward to 
following up with you in the weeks, months, and years ahead.
    The second area--again, I think to issues that have been 
raised already--is relative to scientific research fundings. 
The National Science Foundation (NSF) is the only agency that 
funds basic nonbiomedical research, as you know. The 
potentially groundbreaking projects that the NSF supports drive 
economic growth and spur transformative discoveries that are 
critical to our lives.
    Over the past several decades, these breakthroughs have 
included accelerated supercomputing, bar codes, improving tumor 
detection, and even the shaping of the internet as we know it 
today. Today the NSF is funding projects to better understand 
the inner working of living cells, forecast and predict 
earthquakes and tsunamis, advance clean energy technologies, 
and more.
    Now while Congress has approved funding increase to NSF's 
medical counterpart, the National Institutes of Health, NSF 
funding has not kept pace. So as we act to reverse the 
denigration of science and scientists that we have seen over 
the last 4 years, it is critical, in my opinion, that we also 
support scientists and scientific research with the additional 
funding that they need.
    So as you work to develop the President's budget request 
for fiscal year 2022, will you consider prioritizing new 
investments in scientific research, including increased funding 
for the National Science Foundation? And part two of the 
question is, will you also work to uphold the integrity of 
science as well as support scientist at Federal agencies and 
research institutions throughout the nation?
    Ms. Young. I started my career at NIH. I am certainly aware 
the attention NIH gets from bipartisan members, but its sisters 
in science, NSF, National Institute of Standards and Technology 
(NIST), National Oceanic and Atmospheric Administration (NOAA), 
National Aeronautics and Space Administration (NASA), all 
deserve the same level of support. NSF does great work, 
supports great work among universities. So you certainly have 
my commitment to ensuring that I would lead my voice to those 
who want to prioritize NSF. And we certainly have seen a need 
for that increased basic research during COVID, not just at NIH 
but NSF as well.
    Senator Padilla. As one of the few engineers and scientists 
serving in this body I thank you. Thank you, Mr. Chairman.
    Chairman Sanders. Thank you, Senator Padilla. I want to 
thank Ms. Young for appearing before the Committee today. Ms. 
Young, your full statement will be included in the record. As 
information for all Senators, questions for the record are due 
by 12 noon tomorrow, with signed hard copies delivered to the 
Committee clerk in Dirksen 624. Emailed copies will also be 
accepted, due to our current conditions, under our rules. Ms. 
Young will have 7 days from receipt of our questions to respond 
with answers.
    With no further business----
    Senator Whitehouse. Mr. Chairman, may I make one last 
comment before we close out?
    Chairman Sanders. Very briefly.
    Senator Whitehouse. Very briefly. I just had an exchange 
with Director Wray about the FBI's consistent refusal to answer 
questions from Congress through the Trump administration. In 
nine different committee hearings, seven got zero Questions for 
the Record (QFR) answered. Zero. And what he blamed it on was 
the interagency process that all have to go through, which OMB 
runs.
    So we need to clean that mess up. I think that is a phony, 
basically, but we need to clean that mess up.
    Ms. Young. On the Appropriations Committee we can barely 
produce hearing volumes for lack of QFRs, so you certainly have 
my commitment that we need to do better.
    Chairman Sanders. Okay. Thank you, Senator Whitehouse. 
Under our rules, Ms. Young will have 7 days from receipt of our 
questions to respond with answers.
    With no further business before the Committee, this hearing 
is adjourned.
    [Whereupon, at 12:39 p.m., the Committee was adjourned.]

         ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD

    [Prepared statement, responses to written questions, and 
additional material supplied for the record follow:]

              Prepared Statement of Ms. Shalanda D. Young

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


 EXECUTIVE BUSINESS MEETING TO CONSIDER THE NOMINATION OF MS. SHALANDA 
D. YOUNG, OF LOUISIANA, TO BE DEPUTY DIRECTOR, OFFICE OF MANAGEMENT AND 
                                 BUDGET

                              ----------                              


                       WEDNESDAY, MARCH 10, 2021

                                       U.S. Senate,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
Room S-207, The Capitol, Hon. Bernard Sanders, Chairman of the 
Committee, presiding.
    Present: Senators Sanders, Murray, Wyden, Stabenow, 
Whitehouse, Warner, Merkley, Kaine, Van Hollen, Lujan, Padilla, 
Graham, Grassley, Crapo, Toomey, Johnson, Braun, Sasse, and 
Romney.

         OPENING STATEMENT OF CHAIRMAN BERNARD SANDERS

    Chairman Sanders. Okay, ladies and gentlemen.
    I call the Committee meeting to order.
    The question before the Committee is the nomination of 
Shalanda Young to be Deputy Director of the Office of 
Management and Budget.
    The past 14 years, Ms. Young has served as a top staffer on 
the House Appropriations Committee and has done an excellent 
job working with Democrats and Republicans on legislation that 
must be passed each and every year that impacts the lives of 
tens of millions of Americans. There is no doubt that she is 
highly qualified for this position and I strongly support her 
nomination.
    Senator Graham, would you like to make a speech on this 
issue?

          OPENING STATEMENT OF SENATOR LINDSEY GRAHAM

    Senator Graham. Yes, it will take 2 or 3 minutes.
    The bottom line is Senator Shelby tells me she has been 
great to work with on budget matters and appropriations. But 
the statement that she gave in response to Senator Hawley's 
question about the Hyde Amendment is troubling to many of our 
members.
    So I am going to vote yes with the understanding she has to 
answer one additional question. She said in her statement that 
she would follow the law. I think every regulation in the 
country comes across her desk and I want her to assure me that 
if there is a regulation proposed by the Biden administration 
that changes Hyde or chips away at it that the statutory 
provisions prevail.
    So I am going to vote yes, Mr. Chairman, with that 
understanding. And if she does not give the right answer, I am 
going to change my vote.
    Chairman Sanders. Okay. Do we have a quorum present? I 
think we do. I note that a quorum is present and urge a yes 
vote on this nomination.
    We will vote that the Committee report the nomination to 
the Senate with a recommendation that the nominee be confirmed.
    The clerk will call the roll.
    The Clerk. Ms. Murray.
    Senator Murray. Aye.
    The Clerk. Mr. Wyden.
    Senator Wyden. Aye.
    The Clerk.. Ms. Stabenow.
    Senator Stabenow. Aye.
    The Clerk. Mr. Whitehouse.
    Senator Whitehouse. Aye.
    The Clerk. Mr. Merkley.
    Senator Merkley. Aye.
    The Clerk. Mr. Kaine.
    Senator Kaine. Aye.
    The Clerk. Mr. Van Hollen.
    Senator Van Hollen. Aye.
    The Clerk. Mr. Lujan.
    Senator Lujan. Aye.
    The Clerk. Mr. Padilla.
    Senator Padilla. Aye.
    The Clerk. Mr. Graham.
    Senator Graham. Aye.
    The Clerk. Mr. Grassley.
    Senator Grassley. Aye.
    The Clerk. Mr. Crapo.
    Senator Crapo. No.
    The Clerk. Mr. Toomey.
    Senator Toomey. No.
    The Clerk. Mr. Johnson.
    Senator Johnson. No.
    The Clerk. Mr. Braun.
    Senator Braun. No.
    The Clerk. Mr. Scott.
    Senator Graham. No by proxy.
    The Clerk. Mr. Sasse.
    Senator Sasse. No.
    The Clerk. Mr. Romney.
    Senator Romney. No.
    The Clerk. Mr. Kennedy.
    Senator Graham. No by proxy.
    The Clerk. Mr. Cramer.
    Senator Graham. Yes by proxy.
    The Clerk. Mr. Warner.
    Senator Warner. Aye.
    The Clerk. Mr. Chairman.
    Chairman Sanders. Aye.
    The Clerk. Mr. Chairman, the yeas are 14 and the nays are 
eight.
    Chairman Sanders. Thank you all.
    As information for all Senators, statements for the record 
are due by 12:00 noon tomorrow, with signed hard copies 
delivered to the Committee Clerk in Dirksen 624. Emailed copies 
will also be accepted due to our current conditions.
    With no further business before the Committee, this meeting 
is adjourned.
    [Whereupon, at 2:40 p.m., the Committee was adjourned.]

                                  [all]
</pre></body></html>
